BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound copy
and 40 bound copies of the foregoing Brief of Amicus
Curiae State of Alaska in Support of Petitioners in 205543, 20-544, Janet L. Yellen, Secretary of the Treasury
and Alaska Native Village Corporation Association,
Inc., et al., v. Confederated Tribes of the Chehalis
Reservation, et al., was sent via Next Day Service to the
U.S. Supreme Court, and via Next Day and e-mail
service to the following parties listed below, this 26th
day of February, 2021:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Counsel for Alaska Native
Association, Inc., et al.

Village

Corporation

Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Janet L. Yellen, Secretary of the Treasury

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001

8790 Governor's Hill Drive
Suite l 02

Franklin Square
1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Nicole E. Ducheneaux
Big Fire Law & Policy Group LLP
1404 Fort Crook South
Bellevue, NE 68005
(406) 493-4693
nduchenea ux@bigfirelaw.com

Counsel for Cheyenne River Sioux Tribe
Riyaz Amir Kanji
Kanji & Kantzen, PLLC
303 Detroit Street
Suite 400
Ann Arbor, MI 48104
(734) 769-5400
r kanji@kanjikatzen.com

Counsel for Confederated Tribes of the Chehalis
Reservation, et al.
Jeffrey Scott Rasmussen
Patterson Earnhart Real Bird & Wilson LLP
357 S. McCaslin Blvd., Suite 200
Lousiville, CO 80027
(303) 926-5292
jrasmussen@nativelawgroup.com

Counsel for Ute Indian Tribe of the Uintah and Ouray
Reservation

Laura Wolff
Counsel of Record
Mary Ann Lundquist
Assistant Attorneys General
1031 West Fourth Avenue, Ste. 200
Anchorage, AK 99501
(907) 269-5100
laura. wolff@alaska.gov
TREG R. TAYLOR
Attorney General
STATE OF ALASKA
Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 26, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

P/h f::z; d (., /

J;iv

Notary Public

tJ .

Jo;),/

/Jc~V

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
Febrnary 14, 2023

